No.

IN THE
SUPREME COURT OF THE UNITED STATES

ROLAND J. McLAIN,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Seventh Circuit

PROOF OF SERVICE

ROLAND J. McLAIN, Petitioner
THOMAS A. BRODNIK
McNeelyLaw LLP
143 W. Market Street, Suite 600-A
Indianapolis, IN 46204
(317) 825-5110
Telephone
(317) 825-5109
Facsimile
TBrodnik@McNeelylaw.com
Attorney for Petitioner

I certify, pursuant to Rule 29.5(b) of this Court, that one copy of the Motion to Proceed In
Forma Pauperis and Petition for A Writ of Certiorari, including the required Appendix, of
petitioner Roland McLain have been served by overnight delivery via Federal Express, and by
electronic mail (where known), on the following, who represent the United States and are all of
the parties required to be served:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
Bob Wood
Jeffrey D. Preston
United States Attorney’s Office
10 W. Market Street, Suite 2100
Indianapolis, IN 46204
Telephone: (317) 226-6333
Bob.Wood@usdoj.gov
jeffrey.preston@usdoj.gov

Dated: September 7, 2021

Thomas A. Brodnik, Attorney No. 14508-49
McNeelyLaw LLP
143 W. Market Street, Suite 600-A
Indianapolis, IN 46204
Telephone:
(317) 825-5110
Facsimile:
(317) 825-5109
TBrodnik@McNeelylaw.com

